     Department of Homeland Security

     ��������������������������


 DHS Needs To Strengthen Information Technology 

 Continuity and Contingency Planning Capabilities 


                   REDACTED 





OIG-13-110                               August 2013 

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov



                                     August 28, 2013

MEMORANDUM FOR:              Margaret H. Graves
                             Acting Chief Information Officer
                             Department of Homeland Security

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     DHS Needs To Strengthen Information Technology
                             Continuity and Contingency Planning Capabilities

Attached for your information is our final report, DHS Needs To Strengthen Information
Technology Continuity and Contingency Planning Capabilities. We incorporated the
formal comments from the Departmental GAO/OIG Liaison Office in the final report.

The report contains nine recommendations aimed at improving the Office of the Chief
Information Officer. Your office concurred with eight recommendations. As prescribed
by the Department of Homeland Security Directive 077-01, Follow-Up and Resolutions
for Office of Inspector General Report Recommendations, within 90 days of the date of
this memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation.

Please email a signed PDF copy of all responses and closeout requests to
OIGITAuditsFollowup@oig.dhs.gov. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibilities under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibilities over the Department of Homeland Security. We will post
a redacted version of the report on our website.

Please call me with any questions, or your staff may contact Sharon Huiswoud, Director,
Information Systems Division, at (202)-254-5451.

Attachment



                                              

                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 4 


              Progress Made at the Enterprise Data Centers ...................................................... 4 


              Inadequate Continuity Planning Increases Risk That DHS May Not Be Able To
              Perform Mission Essential Functions ..................................................................... 6
              Recommendations ................................................................................................. 9

              Inadequate Contingency Planning Increases Risk That DHS May Not Be Able To
              Restore Enterprise Mission Essential Systems ..................................................... 10
              Recommendations…………………………………………………………………………............... …..14
              Management Comments and OIG Analysis…………………………………………………… ... 15




   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 20 

              Appendix B:          Management Comments to the Draft Report ............................... 21 

              Appendix C:          Disaster Recovery Service Levels…… ............................................ .26 

              Appendix D:          Major Contributors to This Report ................................................ 29 

              Appendix E:          Report Distribution ........................................................................ 30 


   Abbreviations
              ASP                   Alternate Service Provider
              CBP                   U.S. Customs and Border Protection
              CSC                   Computer Science Corporation
              DC1                   Enterprise Data Center 1
              DC2                   Enterprise Data Center 2
              DHS                   Department of Homeland Security
              DR                    disaster recovery
              EMOC                  Enterprise Management Operations Center


www.oig.dhs.gov                                                                                                                 OIG-13-110
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security

           EOC      Enterprise Operations Center
           FIPS     Federal Information Processing Standards
           HP       Hewlett-Packard
           IT       information technology
           NIST     National Institute of Standards and Technology
           NOC      Network Operations Center
           OCIO     Office of the Chief Information Officer
           OIG      Office of Inspector General
           OneNet   DHS One Network
           OPS      Office of Operations Coordination and Planning
           SOC      Security Operations Center
           SP       Service Provider




www.oig.dhs.gov                                                      OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Executive Summary
   The Department of Homeland Security’s (DHS) ability to perform mission essential functions
   continuously rests upon the availability and integrity of its mission essential systems and
   critical communications assets. We conducted an audit of the efforts undertaken by the
   Department’s Office of the Chief Information Officer to implement and maintain continuity
   of operations and disaster recovery and contingency planning capabilities. The objective of
   our audit was to determine the progress that the Office of the Chief Information Officer has
   made in carrying out its continuity planning roles and developing contingency planning
   strategies for routine backup of critical data, programs, documentation, and personnel for
   recovery after an interruption.

   Generally, DHS has made progress toward implementing effective disaster recovery
   capabilities at the Department’s two enterprise data centers. Specifically, it has established
   a list of disaster recovery services that DHS components can procure for their systems.
   Additionally, the enterprise data centers now have disaster recovery enclaves that provide
   backup capabilities that allow continued minimum operations in the event of a disaster.

   Although DHS has strengthened its disaster recovery capabilities at the Enterprise Data
   Centers, more work is needed. For example, the Office of the Chief Information Officer’s
   inadequate continuity and contingency planning increases the risk that the Department may
   not be able to respond effectively in case of an emergency or disaster. Specifically, the
   Department does not have a headquarters information technology disaster recovery plan
   that details the transition of its headquarters critical information systems and
   communication assets from the primary site to the alternate site. Also, the Office of the
   Chief Information Officer has not established policy that requires mission essential systems
   to be rated as having “high” criticality in accordance with the National Institute of Standards
   and Technology’s Federal Information Processing Standards Publication 199. Finally,
   because of contingency planning weaknesses, all seven of the Department’s enterprise
   mission essential systems that we reviewed are at risk of not having capabilities to react to
   emergency events, to restore essential business functions if a disruption occurs, and to
   resume normal operations.

   We are making nine recommendations to the Office of the Chief Information Officer to
   improve the Department’s information technology continuity planning and its
   development of contingency strategies. The Chief Information Officer concurred with
   eight recommendations and has begun to take actions to implement them. The
   Department’s responses are summarized and evaluated in the body of this report and
   included, in their entirety, as appendix B.

                                               1

www.oig.dhs.gov                                                                         OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   Background

   The lessons learned from such catastrophic events as the attacks of
   September 11, 2001, Hurricane Katrina in 2005, and Hurricane Sandy in 2012,
   demonstrate the need to incorporate continuity as a good business practice into day-to­
   day planning, in order to reduce vulnerability and ensure resilience. An organization’s
   resilience is the ability to resist, absorb, recover from, report, or successfully adapt to
   adversity or a change in conditions and is directly related to the effectiveness of its
   continuity capability.

   On May 9, 2007, National Security Presidential Directive-51/Homeland Security
   Presidential Directive-20 (National Continuity Policy) was issued to establish a
   comprehensive national policy on continuity for Federal Government structures and
   operations. National Essential Functions and continuity requirements were prescribed
   for all executive departments and agencies. DHS adopted the National Continuity Policy
   concept and has taken steps to implement it within the Department. It also has a
   responsibility to maintain mission essential operations for undisrupted security and
   service to the United States and its citizens.

   The DHS Secretary delegated to the DHS Office of Operations Coordination and Planning
   (OPS) responsibilities for leading and administering the Department’s continuity
   program and Department-wide mission assurance activities. These responsibilities
   include developing and maintaining Department-wide continuity planning documents
   such as the DHS Continuity Plan, and the DHS Headquarters Continuity of Operations
   Plan. DHS OPS was also given the authority to ensure emergency preparedness within
   the Department by working, in coordination with the Under Secretary for Management
   and Offices and Component Heads, to ensure that plans and procedures exist for
   identifying, prioritizing, assessing, and protecting the Department’s critical
   infrastructure and key resources.

   OPS issued the DHS Continuity Plan to provide instructions to the Department and its
   components on how to continue mission essential functions during national security
   emergencies. The DHS Continuity Plan follows the National Security Presidential
   Directive-51 /Homeland Security Presidential Directive-20 and Federal Continuity
   Directives.1 DHS has written the Federal Continuity Directives to provide operational


   1
    The Federal Continuity Directives include Federal Continuity Directive 1—Federal Executive Branch
   National Continuity Program and Requirements, February 2008 (updated version October 2012); and

                                                      2

www.oig.dhs.gov                                                                                    OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   guidance to Federal agencies on implementing the principles for the National Continuity
   Policy.

   OPS also developed the DHS Headquarters Continuity of Operations Plan that specifies
   DHS policy and provides directions for the orderly relocation of headquarters personnel
   and continuation of headquarters essential functions at the continuity facilities, for up
   to 30 days, or until normal operations resume. The initiation of the Continuity of
   Operations Plan and procedures may be required to support any event that renders DHS
   operating capabilities inaccessible, unsafe, or otherwise unable to support mission
   requirements. The plan is important to ensure the continued performance by the
   Department and components in the event of a full range of potential emergencies and
   impactful events.

   By exercising its authority, the DHS OPS assigned several key responsibilities to the
   Office of the Chief Information Officer (OCIO). The DHS OCIO’s mission is to develop
   and maintain the single DHS-wide information technology (IT) infrastructure
   environment. DHS’ IT and communication infrastructure is a crucial asset that must be
   strategically developed and deployed to support restoration and the continuity of
   operations plan in the event of man-made or natural disasters.

   OCIO is responsible for the Department’s mission essential function of ensuring an
   enterprise-level availability of IT infrastructure, mission essential systems, and
   communication at all levels of classification. OCIO is required to perform a business
   impact analysis to support its mission essential function. The OPS’ Headquarters
   Continuity of Operations Plan defines business impact analysis as a risk method of
   identifying the effects of failing to perform a mission essential function or business
   requirement. The Headquarters Continuity of Operations Plan also directed the OCIO to
   develop the Headquarters IT Disaster Recovery Plan, which should include details of the
   transition of all DHS Headquarters Continuity of Operations Plan critical
   telecommunication and information systems from the Headquarters location to an
   alternate facility. Other key OCIO responsibilities are to identify mission essential
   systems and ensure the availability and integrity of the systems for use during a
   continuity of operations plan event. Mission essential systems include IT systems,
   databases, and financial management systems. A complete listing of mission essential
   systems should be included in the Headquarters Continuity of Operations Plan. OCIO is
   also responsible for informing DHS Senior Management on the status of
   telecommunications and information systems.


   Federal Continuity Directive 2—Federal Executive Branch Mission Essential Function and Primary Mission
   Essential Function Identification and Submission Process, February 2008.

                                                      3
www.oig.dhs.gov                                                                                    OIG-13-110
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

   Contingency planning for information systems is also part of an overall organizational
   program for achieving continuity of operations for mission operations. Contingency
   planning addresses both information system restoration and implementation of
   alternative mission processes when systems are compromised.

   We have previously reported on DHS IT contingency planning. Specifically, in May 2005,
   we reported that DHS IT disaster recovery sites were not prepared to prevent service
   disruptions. 2 Specifically, 15 of the 19 (79 percent) facilities reviewed did not have a
   recovery site or the recovery site was not fully operational. We noted that these
   problems with disaster recovery are occurring in part because DHS did not have a
   program to provide an enterprise-wide disaster recovery solution. Additionally, in April
   2009, we reported that while the Department had strengthened its disaster recovery
   planning, more work needed to be done.3 We reported that the two new data centers
   need interconnecting circuits and redundant hardware for backup capabilities for each
   other.

   Results of Audit

           Progress Made at the Enterprise Data Centers

           DHS has taken a number of steps to implement IT disaster recovery capabilities
           at the enterprise data centers since our last report in April 2009. Specifically, the
           OCIO established eight levels of disaster recovery capabilities for IT systems
           residing within the enterprise data centers. Additionally, the OCIO has set up
           disaster recovery enclaves to provide backup capabilities for each data center.
           With these enhancements to the enterprise data centers, OCIO has provided the
           components with additional options for disaster recovery services.

           Enterprise Data Center Disaster Recovery Services

           The enterprise data centers offer eight disaster recovery services levels for all
           component and DHS enterprise systems. From the centers, OCIO can offer
           components a wide range of services, including tape backups stored at offsite
           facilities or tape backups created using electronic vaulting services. OCIO can
           provide complete failover services, which is the automatic ability to move
           operations to a redundant backup system. For a complete list of services, see

   2
     Disaster Recovery Planning for DHS Information Systems Needs Improvement (Redacted), OIG-05-22, 

   May 2005.

   3
     DHS’ Progress in Disaster Recovery Planning for Information Systems, OIG-09-60, April 2009.


                                                     4

www.oig.dhs.gov                                                                                   OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

               appendix C. DHS components that have information systems at either of the two
               enterprise data centers can procure recovery services from OCIO through the
               OCIO IT Services and Hardware Catalog, Volume 9, Summer 2012.


               Enterprise Data Center Enclaves

               In our April 2009 report, we noted that the enterprise data centers needed
               connectivity to ensure backup capabilities for each other. 4 Specifically, we
               reported that the necessary telecommunications equipment and circuits were
               not in place to transmit data from one site to the other for backup purposes.
               Without the necessary connectivity between the two data centers, DHS might
               not be able to backup and restore mission critical systems within users’ required
               time frames.

               To address this issue, DHS established the disaster recovery (DR) enclaves. These
               enclaves are composed of




   4
       Ibid.

                                                   5

www.oig.dhs.gov                                                                           OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                          Figure 1.





           Inadequate Continuity Planning Increases Risk That DHS May Not Be Able To
           Perform Mission Essential Functions

           DHS needs to conduct sufficient IT continuity planning to ensure that it can
           perform essential mission functions in a natural, man-made, or cyber disaster.
           Specifically, OCIO has not prepared a Headquarters Information Technology
           Disaster Recovery Plan to transition its headquarters critical information systems
           and communication assets from the primary location to the alternate site.
           Additionally, OCIO did not develop a business impact analysis to identify its
           mission essential function. Also, OCIO did not establish policy for the
           Department and components to use to identify critical information assets and
           mission essential systems. Finally, OCIO needs to monitor mission essential
           systems disaster capabilities and the usage of enterprise data center recovery
           services. Without adequate continuity planning, DHS is at increased risk that a
           catastrophic event could render the organization unable to perform mission
           essential functions.

           Headquarters Information Technology Disaster Recovery Plan

           DHS should have a Headquarters Information Technology Disaster Recovery Plan
           for transitioning its headquarters critical information systems and
           communication assets from its primary location to the alternate location during
           a natural, man-made, or cyber disaster. Such a plan, as required by the DHS
           Headquarters Continuity of Operations Plan, dated June 4, 2012, should be
           designed to restore operability of mission critical systems, applications, or


                                               6

www.oig.dhs.gov                                                                        OIG-13-110
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           computer facility infrastructures at an alternate site after a disaster. According
           to an official from the DHS OCIO, OCIO has not developed a Headquarters
           Information Technology Disaster Recovery Plan because the OCIO currently does
           not have the resources to develop the plan.

           An IT disaster recovery plan is a major component under continuity planning
           guidance. According to the National Institute of Standards and Technology
           (NIST) Special Publication 800-34 Revision 1, Contingency Planning Guide for
           Federal Information Systems, a disaster recovery plan is an information system-
           focused plan designed to restore operability of the target system, application, or
           computer facility infrastructure at an alternative site after an emergency. In a
           disaster recovery plan, best practices require organizations to—

               •	 Establish a planning group with people who understand the business
                  processes, technologies, networks and systems;
               •	 Perform risk assessments and business impact analyses;
               •	 Establish priority levels for business processes, applications, systems and
                  networks;
               •	 Develop recovery strategies; and
               •	 Document and implement the plan.

           Without a Headquarters Information Technology Disaster Recovery Plan and
           process in place, DHS OCIO has not been able to identify the risks to its
           operations and mitigate the consequences to a level acceptable to senior
           management.

           Business Impact Analysis

           DHS OCIO needs to develop a business impact analysis to identify its mission
           essential function, which will ensure the availability of the DHS’ IT infrastructure,
           mission critical systems, and communications assets. The business impact
           analysis should identify relationships, interdependencies, and mitigation
           strategies to support a mission essential function. According to the DHS
           Continuity Plan, a business impact analysis should be conducted every 2 years in
           accordance with the Federal Continuity Directive 2 guidelines and
           requirements. 5 According to OCIO staff, they have not conducted these analyses
           because of resource and staffing limitations.


   5
    Federal Continuity Directive 2—Federal Executive Branch Mission Essential Function and Primary Mission
   Essential Function Identification and Submission Process, February 2008.

                                                     7

www.oig.dhs.gov	                                                                                   OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



           The DHS Continuity Plan specifies that the business impact analysis is the
           primary method for determining and managing risk. A business impact analysis
           is the first source for determining resiliency and contingency planning strategies.
           The results of this analysis determine how critical the system is to the supported
           mission/business processes, what effect the loss of the system could have on the
           organization, and the objective of system recovery time. The business impact
           analysis also determines the type and frequency of backup, the need for
           redundancy or mirroring of data, and the type of alternate site needed to meet
           system recovery objectives. Without the required business impact analysis, DHS
           OCIO may not have an effective risk management process to identify threats and
           vulnerabilities that impact mission essential systems during a disaster.

           Mission Essential Systems

           OCIO needs to strengthen its approach to assessing and monitoring the
           Department’s mission essential systems. Specifically, OCIO needs to ensure that
           all DHS mission essential systems are rated as “high” under the availability
           security objective in accordance with NIST Federal Information Processing
           Standards Publication (FIPS) 199. 6 NIST FIPS 199 provides three systems security
           levels so that organizations can rate their systems high, moderate, or low. Under
           the high level, any loss or disruption of a mission essential system could have a
           severe or catastrophic effect on the Department. We determined that some
           DHS enterprise mission essential systems were rated at the moderate level.
           Because mission essential systems must, by definition, remain available during
           an emergency or a disaster, components should be rating them as high.

           Also, DHS OCIO needs to establish and implement processes to monitor the
           availability of all DHS mission essential systems. According to the OCIO’s
           Information Technology Resilience Plan dated September 13, 2012, DHS has 234
           mission essential systems. The DHS Secretary has assigned the responsibility of
           monitoring the availability of the mission essential systems to the DHS OCIO.
           These responsibilities include monitoring these systems to ensure that they are
           available and have the necessary disaster recovery services in the event of a
           disaster. OCIO staff informed us they have not instituted oversight and
           monitoring procedures for IT disaster recovery services because of resource and
           staffing limitations.


   6
    NIST FIPS 199, Standards for Security Categorization of Federal Information and Information Systems,
   February 2004, pages 2–3.

                                                      8

www.oig.dhs.gov                                                                                     OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Data Center Disaster Recovery Services

           DHS components need to make better use of the disaster recovery services that
           OCIO provides through its enterprise data centers. Currently, 19 out of 234 DHS
           mission essential systems rely on disaster recovery services provided through the
           enterprise data centers platform. The DHS OCIO offers eight disaster recovery
           services levels in its OCIO IT Services and Hardware Catalog, Volume 9, Summer
           2012 (see appendix C). These services are available for components to purchase
           through OCIO for all IT systems that are located at OCIO enterprise data centers.
           These types of services are crucial to ensure that DHS mission essential systems
           are successfully maintained and restored in the event of a disaster. Without
           these services, there is increased risk that the services needed to maintain DHS
           mission essential systems may not be available in the event of a disaster.

           Recommendations

           We recommend that the Chief Information Officer:

           Recommendation #1:

           Develop a Headquarters Information Technology Disaster Recovery Plan for the
           transition of its headquarters critical information systems and communications
           assets from its primary location to the alternate location, as instructed in the
           DHS Continuity of Operations Plan.

           Recommendation #2:

           Perform a business impact analysis of the Office of the Chief Information
           Officer’s mission essential function and update the plan every 2 years in
           accordance with Federal Continuity Directive 2.

           Recommendation #3:

           Develop policies and processes for monitoring the availability of all DHS mission
           essential systems.




                                               9

www.oig.dhs.gov                                                                        OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Inadequate Contingency Planning Increases Risk That DHS May Not Be Able To
           Restore Enterprise Mission Essential Systems

           Contingency planning is a systematic approach for identifying what can go wrong
           in a situation. A system owner should try to identify contingency events and be
           prepared with plans, strategies, and approaches for avoiding, coping with, or
           even exploiting them. Our audit included a review of contingency plans for
           seven DHS enterprise mission essential systems, which are widely used by all
           DHS components. These seven systems are under the control and supervision of
           either the DHS OCIO or the U.S. Customs and Border Protection (CBP). The
           enterprise mission essential systems under the direct control of the DHS OCIO
           are OneNet, DC1, DC2, Redundant Trusted Internet Connection, and Email as a
           Service. The enterprise mission essential systems under the control of CBP are
           the CBP NOC and the CBP SOC. We identified areas for improvement in DHS’
           contingency planning that may maintain the availability of these seven systems
           in the event of a disruption.

           NIST Special Publication 800-34 provides guidance for contingency planning for
           all Federal information systems to mitigate risks. 7 Specifically, DHS enterprise
           system owners are not—

                    •        Updating contingency plans on a timely basis;
                    •        Preparing business impact analyses for each system;
                    •        Maintaining backup data;
                    •        Identifying adequate alternate locations for these systems;
                    •        Implementing contingency training; or
                    •        Performing full failover contingency testing.
           Without adequate contingency planning, DHS may not have sufficient
           capabilities to react in an emergency and restore mission essential functions.
           See table 1 for a summary of our analysis of DHS contingency planning
           weaknesses for the selected enterprise mission essential systems.




   7
    NIST Special Publication 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems,
   May 2010.

                                                     10

www.oig.dhs.gov                                                                                     OIG-13-110
                                              OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security

                                                   Table 1: DHS Contingency Planning

                                                           Contingency Planning Requirements
                                                        Prepare                      Identify    Implement     Perform Full
                                           Update       Business         Maintain   Adequate    Contingency      Failover
                                         Contingency     Impact          Backup     Alternate   Training for   Contingency
                                            Plans       Analysis          Data      Locations     Personnel      Testing
                        OneNet               No            No              No          Yes           No        No (partial)
                        DHS
   Enterprise Mission
   Essential Systems




                        Redundant
                        Trusted
                        Internet
                        Connection           Yes          No               No         Yes           No         No (partial)
                        DC 1                 Yes          Yes              Yes        Yes           No             No
                        DC 2                 Yes          Yes              Yes        Yes           No             No
                        DHS Email as a
                        Service              No           Yes              Yes        Yes           No             No
                        NOC                  No           No               No         No            No             No
                        SOC                  No           No               No         No            No             No


                        We provide further detail on DHS’ enterprise mission essential systems and its
                        compliance with contingency planning requirements in the following sections.

                        Update Contingency Plans

                        DHS needs to update some of its enterprise mission essential systems
                        contingency plans. DHS Sensitive Systems Policy Directive 4300A states that
                        documented formal information system contingency plans should be reviewed,
                        tested, and exercised at least annually and updated as necessary.8 We reviewed
                        seven enterprise mission essential systems and identified four that did not have
                        contingency plans that were revised and updated to reflect the current system
                        information. For example, the OneNet contingency plan, dated February 2011,
                        was approximately 18 months old at the completion of our fieldwork. In
                        addition, the title and date on the cover page for both the NOC and SOC
                        contingency plans were updated prior to our review but the information within
                        the plans was incorrect and outdated. Without updated contingency plans, the
                        DHS OCIO may not have the capability to react effectively to disruptive events.

                        Prepare Business Impact Analyses

                        DHS should develop business impact analyses for all of its enterprise mission
                        essential systems. Specifically, four of the enterprise mission essential systems
                        included in our audit did not have business impact analyses prepared. Most DHS

   8
       DHS Sensitive Systems Policy Directive 4300A, Version 9.1, dated July 17, 2012, Section 3.5.2.e.

                                                                   11

www.oig.dhs.gov                                                                                                OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           mission essential functions are supported by several systems. A business impact
           analysis is required for each system supporting that mission essential function.
           Per NIST Special Publication 800-34, business impact analysis results determine
           how critical the system is to the supported mission essential function processes,
           what effect the loss of the system could have on the organization, and length of
           the system recovery time. 9 An OCIO official stated that business impact analyses
           were not prepared because they are not required by the DHS security policy. We
           agree that the DHS Sensitive Systems Policy Directive 4300A does not require
           system business impact analyses for contingency planning; however, the policy
           needs to be updated to comply with NIST Special Publication 800-34 for a
           system-based business impact analysis. Without the information from a
           business impact analysis, DHS system owners could be unable to determine the
           type and frequency of backups, the need for redundancy or mirroring of data, or
           the type of alternate site needed, to meet their system recovery objectives.

           Maintain Backup Data

           DHS should maintain backup data for all of its enterprise mission essential
           systems. Specifically, four enterprise mission essential systems do not maintain
           data backups in a secure offsite location to allow for ready access in a
           contingency event. According to DHS Sensitive Systems Policy Directive 4300A
           data backups should be performed on systems regularly. Information security
           officials stated that these enterprise mission essential systems do not have
           backup capabilities because of limited or reduced resources, the need for
           storage area networks, and expired contracts. Without adequate backup
           capabilities, DHS may not be able to fulfill its mission in the event of a disruption.

           Identify Adequate Alternate Locations

           DHS has not identified adequate alternate facilities for two of its enterprise
           mission essential systems, NOC and SOC. Specifically, we determined that the
           site in Florida that DHS chose as an alternate facility for both systems is
           inadequate to handle the workload if the primary sites should fail. Although the
           Florida site is a “hot site” in that it has fully operational equipment and capacity
           to assume operational control, it does not have sufficient staffing to operate
           effectively over an extended period. According to NIST Special Publication 800­
           34, one of the requirements for an alternate “hot site” is that the site must be


   9
    NIST Special Publication 800-34 Revision 1, Contingency Planning Guide for Federal Information Systems,
   May 2010, pages 15–16.

                                                     12

www.oig.dhs.gov                                                                                     OIG-13-110
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

            able to handle the full workload of the primary site. 10 However, CBP does not
            have the staffing at the alternate site to handle the workload. In past situations,
            the smaller staff at the Florida site had to operate on a 24×7 schedule until the
            Virginia site staff could recover. A normal schedule would be an 8-hour day.

            Implement Contingency Training for Personnel

            DHS enterprise mission essential systems owners need to implement rigorous
            training requirements for all personnel involved in the contingency planning
            process. Specifically, we determined that all personnel supporting the seven
            enterprise mission essential systems we reviewed did not receive training in
            contingency planning. According to DHS Sensitive Systems Policy Directive
            4300A, the DHS Chief Information Officer should ensure that contingency
            training is performed in accordance with the systems availability requirements.11
            DHS is required to identify personnel involved with enterprise mission essential
            systems and train them in their respective contingency planning roles and
            responsibilities, and in procedures and logistics.

            Perform Full Failover Contingency Testing

            DHS needs to conduct full failover testing for the seven enterprise mission
            essential systems we reviewed. The testing demonstrates that the system can
            be brought to an operational condition at the designated alternate site by
            following the procedures and instructions described in the contingency plan.
            According to DHS Sensitive Systems Policy Directive 4300A, a system’s recovery
            roles, responsibilities, procedures, and logistics in the contingency plan should
            be used for testing within a year prior to authorization to recover from a
            simulated contingency event at the alternate processing site.12

            In lieu of full failover testing, DHS conducted tabletop exercises or partial failover
            exercises for the seven enterprise mission essential systems we reviewed.
            These exercises were not sufficient, in that they were mostly discussion-based,
            and did not involve deploying equipment or other resources. A more effective,
            full testing exercise should be designed to exercise the roles and responsibilities,
            procedures, and assets, such as communications, emergency notifications, and IT
            equipment setup. Full testing exercises vary in complexity and scope, from
            validating specific aspects of a plan to full-scale exercises that address all plan

   10
      Ibid., page 47. 

   11
      DHS Sensitive Systems Policy Directive 4300A, Version 9.1, dated July 17, 2012, Section 3.5.2.g.

   12
      Ibid., Section 3.5.2.f.


                                                        13

www.oig.dhs.gov                                                                                           OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           elements. Without the required full testing exercises, staff might not be able to
           demonstrate their operational readiness for emergencies in a simulated
           environment.

           Recommendations

           We recommend that the Chief Information Officer in coordination with CBP
           officials:

           Recommendation #4:

           Update mission essential systems contingency plans regularly.

           Recommendation #5:

           Prepare business impact analyses for enterprise mission essential systems.

           Recommendation #6:

           Develop and implement a process to maintain backup data for enterprise
           mission essential systems.

           Recommendation #7:

           Identify and establish adequate alternate facilities for the NOC and SOC.

           Recommendation #8:

           Implement contingency training for enterprise mission essential systems.

           Recommendation #9:

           Perform full failover contingency testing for enterprise mission essential
           systems.




                                               14

www.oig.dhs.gov                                                                         OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the DHS
           Government Accountability Office /Office of Inspector General Liaison Office. In
           the comments, OCIO concurred with recommendations 1–8, and non-concurred
           with recommendation nine. In addition, OCIO expressed concern with several of
           the conclusions presented in the report.

           Specifically, OCIO stated that it does not agree with our overall assessment that
           “inadequate continuity and contingency planning leaves the Department
           vulnerable in the event of an emergency.” OCIO states that it is concerned that
           we “did not appropriately consider the many IT disaster recovery capabilities,
           documentation, and testing that, when taken together, comprise a robust
           disaster recovery capability.” OCIO cites as examples certain IT services, such as
           the DHS Emergency Response Group staff, and DHS Devolution capabilities.
           OCIO notes that these capabilities are tested during all National Level Exercises.

           We agree that we did not discuss in detail these areas, because they were not
           within the scope of this audit. Rather, our objective was to determine the
           OCIO’s progress in carrying out its continuity planning roles and developing
           contingency planning strategies for routine backup of critical data, programs,
           documentation, and personnel for recovery after an interruption. We reviewed
           documentation related to Continuity of Operations Plan-designated roles and
           responsibilities for the OCIO but not for other DHS Headquarters offices.
           Nonetheless, we have revised the language in this section to state that
           “inadequate continuity and contingency planning increases the risk” that the
           Department may not be able to respond effectively in case of an emergency or
           disaster.

           OCIO also states in the comments that it disagrees with our suggestion that all
           DHS mission essential systems availability ratings be changed to “high,” in that
           this would conflict with DHS policy. We do not agree with the OCIO in this
           regard. We state in our report that several of the identified mission essential
           systems were rated at a moderate level, which would not always ensure the
           availability of that system during a disaster. The mission essential function of the
           OCIO is to ensure that mission essential systems for the Department and the
           components are available during a disaster. The loss or disruption of a mission
           essential system could severely affect DHS operations. DHS’ current policy does
           not require that all mission essential systems be rated as high. This policy
           conflicts with NIST FIPS 199 in that FIPS requires that systems be rated at the


                                               15

www.oig.dhs.gov                                                                         OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           high level if any loss or disruption of the mission essential system could have a
           severe or catastrophic effect on an agency’s operations.

           Finally, OCIO states that the contingency planning section of the draft report
           does not accurately portray the Department’s contingency planning activity.
           According to the OCIO, the report “indicates gaps in contingency plans, business
           impact analyses, backup data, alternative location, training, and failover testing
           that are not fully accurate.” For example, the OCIO states that we “did not
           recognize any of the contingency training performed for each of the seven
           systems reviewed and did not credit DHS for the robust backup capabilities of
           several of the systems.”

           We do not agree that this section of the report is inaccurate. During this audit,
           we reviewed contingency plans for seven DHS enterprise mission essential
           systems managed by the OCIO and/or CBP. We did not review contingency plans
           for the entire Department. Table 1, DHS Contingency Planning, presents the
           results of our audit based on our review of the seven enterprise systems, using
           DHS and NIST requirements as criteria. During the audit, we requested
           supporting evidence of employees’ contingency training, but we only received
           two certificates. DHS should train their personnel in their contingency roles and
           responsibilities with respect to their information systems. Also, we found that
           four enterprise mission essential systems did not maintain back up data at
           secure off-site locations due to limited resources and expired contracts. DHS
           systems owners should establish alternate storage sites including the necessary
           agreements to permit the storage and recovery of information system backup
           information.

           Our analysis of OCIO’s response to our recommendations follows.

           Recommendation #1

           The OCIO concurs with this recommendation. The OCIO will consolidate
           information from the disaster recovery planning efforts and documents that
           already exist into one Headquarters IT Disaster Recovery Plan. Specifically, the
           OCIO stated that the following documents will be leveraged to develop the IT DR
           Plan: OCIO and DHS Headquarters Continuity of Operations Plans, the DHS
           Resilience Plan, and the Management Directorate Devolution Plan with
           Component Annex Plans.




                                               16

www.oig.dhs.gov                                                                         OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           This recommendation will remain open until the OCIO provides documentation
           to support that all planned corrective actions are completed.

           Recommendation #2

           The OCIO concurs with this recommendation. The OCIO will coordinate with OPS
           to update the business impact analysis every 2 years. We agree that the steps
           OCIO has taken and plans to take will begin to satisfy this recommendation. This
           recommendation will remain open until the OCIO provides documentation to
           support that all planned corrective actions are completed.

           Recommendation #3

           The OCIO concurs with this recommendation. The OCIO agrees that policies and
           processes should be developed that cover automated monitoring capabilities.
           The OCIO will acquire services to implement automated monitoring capabilities
           and plans to begin system implementation this fiscal year. OCIO will develop
           standard operating procedures that cover the newly established monitoring
           capability.

           We agree that the steps OCIO has taken and plans to take will begin to satisfy
           this recommendation. This recommendation will remain open until the OCIO
           provides documentation to support that all planned corrective actions are
           completed.

           Recommendation # 4

           The OCIO concurs with this recommendation. The OCIO will take steps to ensure
           that the enterprise mission essential systems contingency plans are updated
           timely on a continuing basis.

           We agree that the steps OCIO has taken and plans to take will begin to satisfy
           this recommendation. This recommendation will remain open until the OCIO
           provides documentation to support that all planned corrective actions are
           completed.




                                              17

www.oig.dhs.gov                                                                       OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Recommendation #5

           The OCIO concurs with this recommendation. The OCIO will direct the systems
           owners for the cited four enterprise mission essential systems to perform
           business impact analyses.

           We agree that the steps OCIO has taken and plans to take will begin to satisfy
           this recommendation. This recommendation will remain open until the OCIO
           provides documentation to support that all corrective actions are completed.

           Recommendation #6

           The OCIO concurs with this recommendation. The OCIO agrees that maintaining
           backup data for enterprise mission essential systems is important. They cited
           other methods of how data are being maintained in lieu of secure offsite
           location storage arrangements. This recommendation will remain open until the
           OCIO provides documentation to support that all corrective actions are
           complete.

           Recommendation #7

           The OCIO concurs with this recommendation. In the response, the OCIO states
           that they have already identified, established, equipped, staffed, and tested an
           adequate alternate site for the NOC and SOC.

           We do not agree that the staffing levels at the NOC and SOC are adequate to
           handle the workload during a contingency event if the primary sites should fail.
           An alternative location should provide the capabilities of replicating and
           restoring critical applications and functions in order to resume operations in the
           event of an emergency. This recommendation will remain open until the OCIO
           provides a corrective action plan that will address the recommendation.




                                               18

www.oig.dhs.gov                                                                         OIG-13-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Recommendation #8

           The OCIO concurs with this recommendation. The OCIO acknowledged that
           documentation to reflect training was not provided to us until after the issuance
           of our audit report. This recommendation will remain open until the OCIO
           provides documentation to support that all corrective actions are completed.

           Recommendation #9

           The OCIO does not concur with this recommendation. Although the OCIO agrees
           with the importance of performing failover contingency testing for enterprise
           mission essential systems, the OCIO stated that the owner of a mission essential
           system determines the outage risk and economics of building a fully redundant
           system. According to the OCIO, if it has been determined that the mission
           essential system requires full redundancy, the owners procure and implement a
           robust disaster recovery capability. When it is determined that it is not
           necessary for their respective systems to be fully redundant, the owners list the
           system as the top priority for restoration when outages occur, to mitigate risk.

           We do not agree with the OCIO’s comments on this recommendation. During
           the audit, OCIO did not provide evidence that mission essential systems owners
           had conducted the required analyses to determine risk and identify redundancy
           needs. Rather, OCIO provided documentation of the tabletop exercises that had
           been conducted. These exercises were not sufficient, in that they were mostly
           discussion-based, and did not involve deploying equipment or other resources.

           According to DHS Sensitive Systems Policy Directive 4300A, a system’s recovery
           roles, responsibilities, procedures, and logistics in the contingency plan should
           be used for testing, within a year prior to authorization, to recover from a
           simulated contingency event at the alternate processing site. Additionally, DHS
           has a prescribed exceptions policy through which components may request
           waivers to any portion of the DHS Policy Directive. During the audit, OCIO did
           not provide evidence that it had waived failover contingency testing for either its
           systems or components systems.

           This recommendation will remain open until the OCIO provides documentation
           to support that all corrective actions are completed.




                                               19

www.oig.dhs.gov                                                                         OIG-13-110
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of our audit was to determine the Office of the Chief Information Officer’s
   progress in carrying out its continuity planning roles and developing contingency
   planning strategies for routine backup of critical data, programs, documentation, and
   personnel for recovery after an interruption. Specifically, we determined (1) whether
   disaster recovery and Continuity of Operations Plan capabilities are being used by the
   DHS departments and components effectively; (2) whether DHS established effective
   disaster recovery and Continuity of Operations Plan capabilities across selected
   enterprise systems; and (3) whether any recent disruptions of services have occurred
   and to what extent did the disruption impact components’ operations.

   We interviewed selected personnel at DHS Headquarters and components’ facilities in
   Washington, DC; Clarksville, VA; and Stennis Space Center, MS.

   We conducted this performance audit between August and December 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




                                              20

www.oig.dhs.gov                                                                       OIG-13-110
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                   U.S. Departo. .nt nrUomeland S""ur;ty
                                                                                   w..bingtoa, DC 20528


                                                                                   Homeland
                                                                                   Security
                                                   June 24, 2013


       MEMORANDUM FOR:                Frank Deffer
                                      Assistant Inspector General
                                      Office ofh1formation Technulugy Audit~

        FROM:                         JimH.Crumpacker~ \II~
                                      Director                  .......Q..
                                      D~;:parlro~;;uta l GAO"   G Liaison 0 fice

       SUBJECT:                       OIG Draft Report: "DHS Needs to Strengthen Information
                                      Technology Continuity and Contingency Plaw1ing Capabi liti~:~"
                                      (Project No. 010-12- 164-TTA-OHS)

       Thank you for the opportunity to review and comment on this draft report. The U.S. Department of
       Uomeland Security (DHS) appreciates the Office oflns pector Gt:neral's (OIG's) wurk in planning and
       conducting it<> review and issuing this report.

       DHS is pleased to note O JG's acknowledgement that the Department has made progress toward
       implementi ng t:lfective d isaster recovery capabililies at Lhe data centers. However, the DHS Office
       of the Chief Information Officer (OCIO) does not agree with the OlG 's overall assessment that
       •· ... inadequate continuity and contingency planning leaves the Department vulnerable in the event
       of an emergency." OCIO is concerned that 010 apparently did not appropriately con~idt:r the many
       information technology (IT) disaster recovery capabilities, documentation, and testing, that when
       taken together, comprise a robust disaster recovery capability that has proven itself repeatedly
       during several r ecent disaster events. For example:

          •   OCIO, in cooperation with the DHS Office of Operations Coordination and Planning (OPS),
              has established continuously operable IT services and a permanent IT support team at its
              alternate site.

          •   OPS has also established back-up capability for the) at the Headquarters (IlQ) alternate site
              for use in times of emergency or primary system failure.

          •   A well-established Emergency Response Group staff (ERG) aJso is available to activate
              alternate systems with detailed and docwnented procedures.

          •   The Management Directorate (MGMn bas established and documented comprehensive
              devolution capabilities, which include [T services, in partnership with Components, as
              secondary alternate sites. if the primary alternate fa cility is not available for any reason.




                                                                    21

www.oig.dhs.gov                                                                                                            OIG-13-110
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



      These capabilities are tested, most notably during all annual National Level Exercises (NLEs) 1, as
      well as during special events. The capabilities were made known to the OIG audi t team during the
      course of the audit and represent sound continuity and contingency planning, as well as
      demonstrable operational testing of an HQ IT disaster recovery capability.
      OCIO also disagrees with OIG's suggestion that a ll DIIS Mission Essential Systems (MESs)
      avai lability ratings should be changed to "high" despite the results of the assessment that the
      systems performed in accordance with National Institute of Standards and Technology, Federal
      Information Processing Standard- (FIPS-) 199 instructions. It also is important to note that the
      OIG's suggestion conflicts with DHS policy. Specifically, DHS Sensitive System Policy
      Directive 4300A requires that FIPS- 199 be used to determine the sensitivity level for
      confidentiality, integrity, and avai lability of the system as the first step in authorizing an IT
      system. The DHS policy clearly identifies the degree of contingency capability that is required
      on the basis of t he rating determ ined by completing the FIPS assessment.
      Beyond DHS 's current sensitive system policy, OCIO has undertaken a robust and documented
      effort to identify MESs, and having deve loped an MES list and accompanying list maintenance
      processes, is reconcili ng MES information with system accreditation records. TheMES list was
      developed to aid in reporting and monitoring the health of DHS-wide IT services, and listing
      systems without a " High Availability" rating on the MES list does not necessaril y represent a
      policy shortcoming. For a given system, justifiable criteria exist in th e form of accepted
      recovery time/point objectives that do not warrant the investment in contingency capabilities that
      a formal High Availability rating implies.
      The contingency planning section of the draft report also does not accurately portray the
      Department' s comprehensive contingency planning activity. The report indicates gaps in
      contingency plans, Business Impact Analysis (B IA), back-up data, alternate location, training, and
      failover testing that are not full y accurate. For example, O IG did not recognize any of the
      contingency training perfom1ed for each of the seven systems reviewed and did not credit DHS for
      the robust back-up capabi lities of several of the systems

      The draft report cont ai ned nine recommendations, eight with which the Department concurs and
      one with which it non-concurs. Specifically, OIG recommended that the DHS Chief Information
      Officer:

      Recommendation 1: Develop a Headquarters Information Technology Di saster Recovery Plan
      for the transition of its headquarters critical infonnation systems and communications assets
      from its primary location to the alternate location, as instructed in the DHS Continuity of
      Operations Plan.

      Response: Concur. OClO will consolidate information from the extensive disaster recovery
      planning efforts an d documents that already exist into one HQ IT Disast er Recovery (DR) Plan.
      Specifically, the following existing documents will be leveraged to develop the DR Plan: OC IO
      and DHS HQ Continuity of Operations Plans, the DHS Resilience Plan, t he MGMT Devolution
      Plan with Component Annex Plans, and various Concept of Operations and training

      1
       N LEs are congressionally mandated preparedness exercises designed to educate and prepare participants for
      potential catastrophic events.


                                                                                                                    2




                                                                22

www.oig.dhs.gov                                                                                                         OIG-13-110
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




     documentation that were provided to OIG during the course of the audit. Estimated Completion
     Date (ECD): March 31,201 4.

     Recommendation 2: Perform a business impact analysis of the Office of the Chieflnformation
     Officer's mission essential function and update it every 2 years in accordance with Federal
     Continuity Directive 2.

     Response: Concur. OCIO will coordinate with OPS to update the business impact analysis of
     OCIO's mission essential function every 2 years in accordance with Federal Continui ty Directive
     2. ECD: June 30,20 14.

     Recommendation 3: Develop policies and processes for monitoring the availability of all DHS
     mission essential systems.

     Response: Concur. Monitoring is being performed at the Component level and by service
     providers forMES . OCIO agrees, however, that policies and processes should be developed that
     cover automated monitoring capabilities. The IT Services Office of OCIO is presentl y acquiring
     services to implement automated monitoring capabilities and plans to begin system
     implementation no later than September 30, 2013. OCIO will develop standard operating
     procedures that cover the newly established monitoring capability. ECD: December 31 , 20 13.

     Recommendation 4: Update mission essential systems contingency plans regularly.

     Response: Concur. MES contingency plans are updated annually within DHS Information
     Assurance Compliance tools (i.e., The Trusted Agent Federal Information Security Management
     Act) as required by DHS IT policy 4300A. Although some plan updates were not uploaded in a
     timely manner, OCIO has since updated those contingency plans and will make timely updates
     on a continuing basis. These updated plans are now in place and are available for OlG review.
     We request that this recommendation be considered resolved and closed.

     Recommendation 5: Prepare business impact analyses for enterprise mission essential systems.

     Response: Concur. The National Institute of Standards and Technology (NIST) Special
     Publication 800-34 Revision 1: Contingency Planning Guide for Federal Information Systems
     states that the Information System Contingency Plan (ISCP) Coordinator is responsible for
     conducting the BIA on an information system. The ISCP Coordinator is typicall y a functional or
     resource manager within the organization. On the basis of guidance in N IST 800-34 and DHS
     Sensitive Systems Policy Directive 4300A, the owner of the mission essential system is
     responsible for conducting the BIA. The DHS CIO will direct MES owners to perform BIAs for
     the four MESs identified in the OIG audit as not having prepared BIAs. ECD: March 31, 2014.

     Recommendation 6: Develop and implement a process to maintain back-up data for enterprise
     mission essential systems.

     Response: Concur. OCIO argues that maintaining back-up data for enterprise mission essential
     systems is important and notes that a process for maintaining such data already exists.



                                                                                                   3



                                                       23

www.oig.dhs.gov                                                                                         OIG-13-110
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




      Specifically, as recognized in the report, DHS maintains back-up data fo r three of the seven
      mission essential systems. As fo r the four others reviewed their data are also backed up, as
      appropriate, and described below.

     T he DHS network is a transport that does not save or store data. lt is principally a service
     provided by two diffe rent carriers through their Multiprotocol Label Switching (MPLS) service,
     thus the concept of a system back-up is not applicable in the same sense as implied in the report.
     Back-up is accomplished through this MPLS service, which is procured with stringent service-
     level agreements from two carriers as a key resiliency feature. To t he lim ited extent that the
     network entails Government-controlled equipment assets resident in the data centers, back-ups
     are regularly performed. The Network Security Plan describes the process for both the back-up
     plans.

     Other systems similarly rel ies on two carriers, thus back-up concepts are also not applicable in
     the same sense as implied in the report. The alternate site serves as the back-up. Systems that
     rely more heavily on Government-controlled capabilities are resident at data centers, where
     back-ups arc routinely performed. Given the foregoing explanation, we request that this
     recommendation be considered resolved and closed.

     R ecommendation 7: Identify and establish adequate alternate faci li ties.

     Response: Concur. DHS has already identified, establ ished, equipped, staffed, and tested (by
     virtue of active-active operation) an adequate alternate facility. The OIG was provided
     documentation supporting the existence of the facilities during the audit. While entirely
     duplicative contingency staffing at the alternate location may seem desirable, it is neither fiscally
     prudent nor necessary, given that current staiT levels at the alternate site are adequate for
     immediate disaster coverage and would certainly be bolstered with staff from other locations
     should long-term operations at the alternate facility be required. We request that this
     recommendation be considered resolved and closed.

     Recommenda tion 8: Implement contingency trai ning for enterprise mission essential systems.

     Response: Concur. DHS has implemented and is regularly performing contingency training for
     personnel for the seven systems reviewed in the report. Specifically, data centers have
     contingency training by individual j ob assignment and function. Other systems have
     contingency traini ng provided through the TT&E (Testing, Training and Exercise) program,
     which provides role-based quarterly contingency training. Trai ning has also been provided for
     network personnel in coordination with the NLEs as tab le-top exerc ises, as well as during the
     Authority to Operate process. DI IS p lans to continue contingency training via annual table-top
     exercises and in conjunction with the NLEs.

     OC IO acknowledges that documentation to rencct this training was not provided to OIG until
     after the issuance ofthis drafi report. Ln the future, OCIO will better document training events as
     they occur and will be able to provide re lated documentation in a timelier manner.




                                                                                                         4




                                                          24

www.oig.dhs.gov                                                                                              OIG-13-110
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



       It is important to note, Component-level system ovmers are directly responsible for funding the
       operation and mai ntenance of most systems in DHS. This includes provision of fu nds and
       resources for contingency training in situations where systems are dependent upon enterprise
       services, such as those that reside at the data centers. OClO partners with system owners to
       coordinate training and other system operation and mai ntenance acti vities. We request that this
       recommendation be considered resolved and closed.

       Recommendation 9: Perform fuU fai lover contingency testing for enterpri se mission essential
       systems.

       Response: Non-concur. The Department agrees on the importance of perfo rming failover
       contingency testing for enterprise mission essential systems and has implemented failover testing
       as requi red. As proscribed by NIST guidance, the mission owner o f an MES determines the
       outage risk and economics of building a full y redundant system. If it has been determined that
       the YffiS requires full redundancy, the mission owners have procured and implemented a robust
       disaster recovery capabi lity. For those who have determined that it is not necessary for their
       respective MES to be fu lly redundant. theMES has been listed as the top priority system for
       restoration when outages occur to mitigate risk.

       T he Department tests its disaster recovery capabi lity each year during the NLEs and system-by-
       system fail over testing is performed periodically for all seven of the systems reviewed in tllis
       report. For example, systems hosted in one DHS data center will have an alternate data center as
       the failover site. Data is repl icated at the alternate site in real-time. Partial fa ilover te ling was
       performed in October 2012. and an additional tabletop exercise was held in March 2013.

       T he DHS network and other systems arc fully redundant, with redundant carriers, circuits, and
       connections. The network infmstructure is replicated at different data centers. Some of the MES
       reviewed run in a " live-li ve" configuration and are therefore fai lover tested whenever the other
       point is not reachable. We request that this recommendation be considered resolved and closed.

       Again, thank you for the opportunity to review and comment on this drafi report. Technical
       comments regarding certai n accuracy. sensiti vity, context and perspective, and editorial aspects
       of the draft report were previously provided under separate cover. Please feel free to contact me
       if you have any questions. We look forward to working with you in the fu ture.




                                                                                                              5




                                                             25

www.oig.dhs.gov                                                                                                   OIG-13-110
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix C
   Disaster Recovery Service Levels 13




   13
        OCIO IT Services and Hardware Catalog, Volume 9, Summer 2012.

                                                      26

www.oig.dhs.gov                                                         OIG-13-110
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




   14
     Active-Active is a phrase used to describe a network of independent processing devices where each
   device has access to a replicated database giving each device access and usage.

                                                     27
www.oig.dhs.gov                                                                                    OIG-13-110
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Sharon Huiswoud, IT Audit Director
   Sharell Matthews, IT Audit Manager
   Beverly Dale, Team Leader
   Robert Durst, Senior Program Analyst
   Frederick Shappee, Program Analyst
   Charles Twitty, Referencer




                                          28

www.oig.dhs.gov                                                 OIG-13-110
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Information Officer
   Acting Chief Privacy Officer


   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




                                                29

www.oig.dhs.gov                                                            OIG-13-110
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
